No.

UDl

rj P

^^"'9Court, US'
filed

IN THE UNITED STATES SUPREME COURT

AU6 0 5 2021
£E!£eoftheclerk

NEHAD ABDEL NABI - PETITIONER
Vs.

FATMA ADEL SEKIK - RESPONDENT

On Petition For Writ Of Certiorari To The Court Of
Appeals of Tennessee For The Eastern Division,
Case No. E2019-01302-COA-R3-CV

PETITION FOR WRIT OF CERTIORARI

PRO-SE PETITIONER:
Nehad Abdel Nabi
# 561320
T.C.I.X.
1499 R.W. Moore Memorial
Highway
P. O. Box 4050
Only, Tennessee 37140-4050
No Phone

RECEIVED
AUG 1 0 2021
fUPR EMlfCOURtFi^
1

QUESTIONS PRESENTED FOR REVIEW

I.
DID THE TENNESSEE COURT OF APPEALS DENY
THE PETITIONER’S DUE PROCESS RIGHTS WHEN IT
ALLOWED EX PARTE ORAL ARGUMENTS BY
OPPOSING COUNSELS OVER THE PETITIONER’S
OBJECTION?

II.
DID THE TRIAL COURT DENY DUE PROCESS WHEN
IT REFUSED TO GRANT APPELLANT SUFFICIENT
TIME IN WHICH TO LOCATE AND SECURE NEW
COUNSEL AFTER HIS TRIAL ATTORNEY WITHDREW
DUE TO A CONFLICT?

n

RULE 29.6 STATEMENT
Petitioner Nehad Abdel Nabi is an individual serving a
sentence in a State of Tennessee Department of Corrections
institution.

Fatma Adel Sekik is Nehad Abdel Nabi’s wife who

sought a divorce that is the subject of this petition. No corporation is
involved in this cause.

in

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED..................................................................................

3

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE PETITION

16

Did The Tennessee Court Of Appeals Deny The Petitioner’s
Due Process Rights When It Allowed Ex Parte Oral
Arguments By Opposing Counsels Over The Petitioner’s
Objection?......................................................................................... 16
The Trial Court Denied Due Process When It Refused To
Grant Appellant Sufficient Time In Which To Locate And
Secure New Counsel After His Trial Attorney Withdrew
Due To A Conflict............................................................................ 29
CONCLUSION

36

APPENDICES
Appendix “A”
Fatma Adel Sekik v. Nehad Abdelnabi, No. E2019-01302-COA-R3CV, 2021 WL 120940 (Tenn.Ct.Appeal Jan. 13, 2021), permission to
appeal denied by the Tennessee Supreme Court on May 12, 2021.
Appendix “B”
Technical Record Volume I
Appendix “C”
Technical Record Volume II
Appendix “D”
Technical Record Volume III
IV

TABLE OF AUTHORITIES
CASES
Armstrong v. Manzo, 380 U.S. 545, 85 S.Ct. 1187, 14 L.Ed.2d 62 (1965)

20

Boddie v. Connecticut, 401 U.S. 371, 91 S.Ct. 780, 28 L.Ed.2d 113 (1971)....

20,21

Bounds v. Smith, 430 U.S. 817, 97 S.Ct. 1491, 52 L.Ed.2d 72 (1977)............

21

Dixon v. Love, 431 U.S. 105, 97 S.Ct. 1723, 52 L.Ed.2d 172 (1977).............

20

Fidelity-Phenix Fire Ins. Co. v. Oliver, 152 S.W.2d 254 (Tenn.Ct.App. 1941)

35

Logan v. Zimmerman Brush Co., 455 U.S. 422, 102 S.Ct. 1148, 71 L.Ed.2d 365 (1982)19
Martinez v. Court of Appeal of California, Fourth Appellate District, 528 U.S. 152, 120
S.Ct. 684, 145 L.Ed.2d 597 (2000)
17, 23,24, 25
Mathews v. Eldridge, 424 U.S. 319, 96 S.Ct. 893, 47 L.Ed.2d 18 (1976)

20,21

Moore v. Moore, No. 01-A-01-9210-CH00-389, 1993 WL 54593 *5 (Tenn.Ct.App. Mar.
3, 1993)
27
Mullane v. Central Hanover Bank & Trust, 339 U.S. 306, 70 S.Ct. 652 (1950)

22

Obergefell v. Hodges,

19

U.S.___, 135 S.Ct. 2584, 192 L.Ed.2d 609 (2015)

Paiko v. Connecticut, 302 U.S. 319 U.S. 319, 58 S.Ct. 149, 82 L.Ed. 288 (1937)

19

Price v. Johnston, 334 U.S. 266, 68 S.Ct. 1049, 92 L.Ed.2d 1356 (1948)............

17, 22

Rochin v. California, 342 U.S. 165, 72 S.Ct. 205, 96 L.Ed. 183 (1952)...............

19

United States v. Cronic, 104 S.Ct. 2039 (1984)

36

Wolf v. McDonnell, 418 U.S. 529, 94 S.Ct. 2963, 41 L.Ed.2d 935 (1974)

21

STATUTES
28 U.S.C. § 2244(d)

34

28 U.S.C.A. § 2254

33

Tenn.Code Ann. § 41-21-304(a)

25,29

Tennessee Code Annotated § 20-7-101

34

v

Tennessee Code Annotated § 40-30-102(a)

33

Tennessee Code Annotated § 40-30-106(b)

33

RULES
Rule 10, RJC 2.9 Rules of the Supreme Court of the State of Tennessee
Rule 2 of the Tennessee Rules of Appellate Procedure
Tennessee Rules of Appellate Procedure, Rule 35

27, 28
28

26, 28

CONSTITUTIONAL PROVISIONS
Art. 1, Sec. 12, of the Constitution of Tennessee

17

Art. 1, Sec. 17, of the Constitution of Tennessee

17

Fifth Amendment of the Constitution of the United States

18

Fourteenth Amendment of the Constitution of the United States

18

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review
the judgment below.
OPINIONS BELOW

The opinion of the highest state court to review the merits
appears at Appendix “A” to the petition and is unpublished at
Fatma Adel Sekik v. Nehad Abdelnabi, No. E2019-01302-COAR3-CV, 2021 WL 120940 (Tenn.Ct.Appeal Jan. 13, 2021),
permission to appeal denied by the Tennessee Supreme Court
on May 12, 2021.

1

JURISDICTION
The date on which the highest state court decided this case
was December 30, 2009. A copy of that decision appears at
Appendix “A”.
A timely application for permission to appeal was thereafter
denied on the 15th day of March, 2010, and a copy of the order
denying rehearing appears at Appendix “A”

The jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
Fifth Amendment of the Constitution of the United States
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a
Grand Jury, except in cases arising in the land or naval forces,
or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.
Fourteenth Amendment of the Constitution of the United
States
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United
States and the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
Art. 1, § 12 of the Constitution of Tennessee
That no conviction shall work corruption of blood or forfeiture
of estate. ...
Art. 1, § 17, of the Constitution of Tennessee
That all courts shall be open; and every man, for an injury

done him in his lands, goods, person or reputation, shall have
-remedy—by—due_course of law, and right and justice
administered without sale, denial, or delay. Suits may be
brought against the State in such manner and in such courts
as the Legislature may by law direct.
Tennessee Code Annotated § 41-21-304(a)
(a) In no civil case can an inmate be removed from the
penitentiary to give personal attendance at court, but
testimony may be taken by deposition, as in other cases, the
party seeking the testimony being required to make affidavit
that the inmate is a material witness in the cause.
Rule 10, RJC 2.9(A), Rules of the Tennessee Supreme Court
(in pertinent part)
(A) A judge shall not initiate, permit, or consider ex parte
communications, or consider other communications made to
the judge outside of the presence of the parties or their
lawyers, concerning a pending or impending matter, except as
follows:
(1) When circumstances require it, ex parte communication for
scheduling, administrative, or emergency purposes, which does
not address substantive matters, is permitted, provided:
(a) the judge reasonably believes that no party will gain
procedural, substantive, or tactical advantage as a result of
the ex parte communication; and
(b) the judge makes provision promptly to notify all other
parties of the substance of the ex parte communication, and
gives the parties an opportunity to respond.

(5) A judge may initiate, permit, or consider any ex parte
communication when expressly authorized by law to do so.
Rule 2 of the Tennessee Rules of Appellate Procedure
4

For good cause, including the interest of expediting decision
-upu30L_any matter, the Supreme Court, Court of Appeals, or
Court of Criminal Appeals may suspend the requirements or
provisions of any of these rules in a particular case on motion
of a party or on its motion and may order proceedings in
accordance with its discretion, except that this rule shall not
permit the extension of time for filing a notice of appeal
prescribed in Rule 4, an application for permission to appeal to
the Supreme Court from the denial of an application for
interlocutory appeal by an intermediate appellate court
prescribed in Rule 9(c), an application for permission to appeal
to the Supreme Court from an intermediate appellate court’s
denial of an extraordinary appeal prescribed in Rule 10(b), an
application for permission to appeal prescribed in Rule 11, or a
petition for review prescribed in Rule 12.
Tennessee Rules of Appellate Procedure, Rule 35
(a) Request; Waiver. Any party to an appeal who desires oral
argument shall so request by stating at the bottom of the cover
page of the party’s brief that oral argument is requested. If any
party to an appeal requests oral argument it is unnecessary for
any other party to do so except as otherwise provided in this
subdivision. No party may argue unless the party has filed a
brief as required by these rules. A party who has requested
oral argument and who thereafter determines to waive oral
argument shall notify the clerk of the appellate court and all
other parties. Any other party who has not previously
requested oral argument may then request oral argument by
notifying the clerk of the appellate court and all other parties.

5

STATEMENT OF THE CASE
A.
This appeal arises out of a divorce proceeding. Fatma Adel
Sekik (“Wife” or “Mother”) and Nehad Abdelnabi (“Husband” or
“Father”) are from the Middle East; Wife is from Cairo, Egypt, and
Husband is from Palestine. The parties were married in 1996 in
Egypt and moved to the United States shortly thereafter, where they
resided in Knoxville, Tennessee.

Fatma Adel Sekik v. Nehad

Abdelnabi, No. E2019-01302-COA-R3-CV, 2021 WL 120940, *1
(Tenn.Ct.Appeal Jan. 13, 2021), perm. Appeal denied May 12, 2021.
The parties have four children. Their third child, Hamza, was born
in 2002 and has special needs.

Id.

Husband is an “electronics

technician” and owned an electronics business in Knoxville. Id. He
also oversaw the financial aspects of family life, including the buying
and selling of real property during the marriage, such as the real
property located in the Gaza Strip that is the subject of many issues
raised in this appeal. Id. Wife primarily took care of the parties’
home and four children. Id. Wife also works part-time from home,
translating Arabic conversations by phone, for which she is paid by
the minute.
6

Born to the marriage were four (4) children: Sherin and
Nesma, both daughters, who were fifteen (15) and twelve (12) at the
time of filing and twenty-one (21) and eighteen (18) at the time of
trial, and Hamza and Omar, both sons, who were nine (9) and three
(3) respectively at the time of the filing of the divorce, and sixteen
(16) and ten (10) at the time of trial.

(Appendix “C”, p. 248-49).

Sherin is now on full scholarship to pharmacy school (having
finished college in three (3) years) and Nesma attends the University
of Tennessee on full scholarship. Id. Hamza suffers from autism
that evidences itself in behavioral issues and intellectual limitations.
Id. Hamza's reading comprehension is in the Kindergarten to First
Grade range.

Id.

He has great difficulty with math and little

success in other academic pursuits. Id. The consensus of his special
education experts is that it is unlikely that Hamza will ever be able
to be self-supporting. Id.

Hamza's behavioral challenges require

constant supervision, and any minor changes in routine exacerbate
his behavioral problems significantly. Id. Omar is ten (10) now and
thriving. Id.
On the 7th day of September, 2012, Fatma Adel Sekik filed a
complaint

for

divorce

against
7

Nehad

Abdel

Nabi

alleging

irreconcilable differences have arisen between the parties, and those
differences are permanent. (Appendix “B”, p. 2). In the alternative,
the

Plaintiff alleged that “the

[Appellant]

has

engaged in

inappropriate marital conduct, such that a divorce should be granted
to the Plaintiff.” (Appendix “B”, p. 2).
Husband's was served with the Complaint for Divorce, along
with the statutory injunctions, and a Petition for Order of Protection
which had been filed September 7, 2012.

(Appendix “C”, p. 251).

Appellant’s attorney, Robert L. Jolley, Jr., filed a Notice of
Appearance on the 17th day of October, 2012. (Appendix “B”, p. 28).
When the Order of Protection came up for hearing on September 26
2012, Husband, with direct assistance and involvement of his
brother, Mr. Nahed Abdulnabi (hereafter "Brother"), reached an
agreement with Ms. Sekik as to financial support and child support
pending the divorce. Id. Part of that agreement included Husband
paying Two Thousand Dollars ($2,000.00) per month, beginning with
the month of September 2012, in child support. (Appendix “C”, p.
251). Thereafter, Husband paid a total of Three Thousand Dollars
($3,000.00) in support, and none has been paid since that time in
2012. Id.

8

In late November or early December 2012, Husband's family
prevailed upon Ms. Sekik to give him another chance, as their faith
might require. (Appendix “C”, p. 252). Accordingly, on December 5,
2012, the parties entered an Amended Order of Protection,
reaffirming the financial obligations of the original Order of
Protection, but allowing social contact. Id. Husband moved back
into the marital residence at that time. Id. They remained in the
residence together from December 2012 until January 2016, when
Husband was taken into custody after conviction for one count of
aggravated kidnapping, one count of aggravated kidnapping, and
two counts of aggravated assault. Id.; see also State v. Nehad Sobhi
Abdelnabi, No. E2017-00237-CCA-R3-CD, 2018 WL 3148003, *1
(Tenn.Crim.App. filed Jun 26, 2018), perm, app denied

Nov. 15

2018.1
Four (4) years after filing for divorce and eight months after he
Husband’s arrest, on the 29th of September, 2016, the Plaintiff filed a
motion for default judgment. (Appendix “B”, p. 29). On the 5th day
of October, 2016, the Appellant filed his Answer to the Complaint.

1 This case arose from from the kidnapping and assault of the victim, Naser Ferwanah, by the Defendant
and co-defendant, Lowi Fathi Akila, on February 1,2012. State v. Abdelnabi, 2018 WL 3148003 at *1.
Mr. Abdelnabi thought Naser Ferwanah was having an affair with his wife. Id. at 1-2.

9

(Appendix “B”, p. 32). The Appellant admitted that the parties had
not yet separated at the time the Complaint was filed. (Appendix
“B”, p. 32). Appellant further averred that the parties continued
cohabitating at the marital residence until his incarceration in
January 2016. (Appendix “B”, p. 32).
On the 17th day of July, 2017, Plaintiff filed a motion to amend
complaint, (Appendix “B”, p. 59), and an amended Complaint adding
Nahed Abdulnabi and Rewa Gharbawe as co-defendants, (Appendix
“B”, p. 63). A hearing was held on the 11th day of August, 2017 and
the Honorable Judge Gregory S. McMillan granted the Plaintiffs
Motion to Amend the Complaint on the 31st day of August, 2017.
(Appendix “B”, p. 101).

On the 23rd day of September, 2017, the

Appellant, through counsel, filed his answer to the Amended
Complaint. (Appendix “B”, p. 120).
On the 27th day of April, 2018, Plaintiff filed a motion for
default judgment as to the two co-defendants, Nahed Abdulnabi and
Rewa Gharbawe. (Appendix “B”, p. 123). The Co-Defendants filed
their response on the 8th day of June, 2018. (Appendix “C”, p. 150).
On the 11th day of June, 2018, the Co-Defendants filed an Answer
and Counter/Cross-Claim. (Appendix “C”, p. 152). On the 28th day of
10

June, 2018, the Plaintiff filed her answer to the counter/cross-claim
filed by the co-defendants. (Appendix “C”, p. 171). On the 31st day of
January, 2019, on the issue of grounds for and granting of divorce
with all other issues reserved, the Court granted the plaintiff a
divorce. (Appendix “C”, p. 196).
On the 6th day of February, 2019, Robert L. Jolley, Jr., filed a
motion to be relieved as counsel. (Appendix “C”, p. 198). Mr. Jolley
submitted that he
... represented Mr. Abdelnabi in his criminal case, State of
Tennessee v. Nehad Abdelnabi, Knox County Criminal Court,
No. 100273A. On January 25, 2019, Mr. Abdelnabi filed a
Petition For Post-Conviction Relief in his criminal case
alleging ineffective assistance of counsel. ... Under such
circumstances, Counsel asserts that he can no longer
effectively represent Mr. Abdelnabi in these proceedings.
(Appendix “C”, p. 198).
On the 8th day of February, 2019, the Trial Court, “and for good
cause shown,” relieved Mr. Jolley as counsel for Appellant Nehad
Abdel Nabi. j (Appendix “C”, p. 207).

However, the trial court then

ordered that:
This matter continues to be set for trial on February 25 — 27,
2019, and March 4, 2019. The relieving of Mr. Jolley as
counsel will not continue this trial date, i Nehad Abdelnabi
shall obtain new counsel or represent himself.
11

(Appendix “C”, p. 207).
On the 15th day of August, 2019, Plaintiff, Fatma Adel Sekik,
through counsel, filed an “Amended Complaint to include an (sic)
additional grounds and to join a party.”

(Appendix “C”, p. 219).

However, Appellant Nehad Abdel Nabi was never served with a copy
of the Amended Complaint.2
On the 19th day of February, 2019, the Trial Court held a
Hearing on the Defendant / Cross-Plaintiff Nahed Abdulnabi’s
motion for continuance, (Appendix “C”, p. 225-26). Appellant Nehad
Abdel Nabi was not present at the hearing. (Appendix “C”, p. 226).
In that hearing, the trial court stated:
Mr. Abdelnabi - Mr. Nehad Abdelnabi's loss of counsel struck
this Court as fortuitous in that he had a year to file his
motion asserting ineffective assistance of counsel as part of
his criminal case, and yet he chose to do it a week - well,
within a month of the trial date, I believe in an effort to delay
the trial, and so that Mr. Jolley could not continue, who has
defended this case since its inception.
(Appendix “C”, p. 233)

2 The Certificate of Service indicates that a copy of the Amended Complaint was served upon Robert L.
Jolley whom had withdrawn as counsel 6 months prior to the Amended Complaint being filed. Upon
information and belief, the Amended Complaint was not forwarded to Defendant Nehad Abdel Nabi and
Mr. Abdel Nabi never received a copy until he received the certified record from this appellate court.

12

The trial court’s Order, entered on the 22nd day of
February, 2019, on the Motion to Continue, in pertinent part, found
as follows:
As this Court has previously noted, it is fortuitous that Nehad
Abdelnabi had nearly a year to file an effective assistance of
counsel claim and waited until very shortly before trial to do
so resulting in the withdrawal of his counsel and his request
for continuance.
(Appendix “C”, p. 239).
On the 11th day of March, 2019, the trial court issued an Order
upon Appellant Nehad Abdel Nabi’s oral Motion to retain Mr. Abdel
Nabi in the custody of the Sheriff of Knox County, Tennessee.
(Appendix “C”, p. 245).

The trial court found “that Original

Defendant, Nehad Abdelnabi's presence in Knoxville is necessary
until this matter is concluded.” (Appendix “C”, p. 245).
On the 18th day of March, 2019, the trial court issued its
Findings of Fact and Conclusions of Law.

(Appendix “C”, p. 248-

280). On the 25th day of June, 2019, the trial court issued an Order
(Appendix “C”, p. 281-289). On the 18th day of July, 2019, appellant
Nehad Abdel Nabi filed a Motion for New Trail. (Appendix “C”, p.
293-295). On the 12th day of August, 2019, appellant Nehad Abdel

13

Nabi filed an objection to the Plaintiffs Proposed Parenting Plan.
(Appendix “D”, p. 305). Plaintiff Sekik filed a response to appellant
Nehad Abdel Nabi’s objection on the 16th day of August, 2019.
(Appendix “D”, p. 312). A “Corrected Plaintiffs Response to Nehad
Abdelnabi's Objection to the Proposed Permanent Parenting Plan”
was filed on August 21, 2019. (Appendix “D”, p. 348). The trial court
issued an Order “based upon the motion by Nehad Abdelnabi
(Defendant) for a new trial, Defendant's Objection to the Parenting
Plan, the responses filed by Plaintiff to each of those pleadings, and
the record as a whole” on the 29th day of August, 2019. (Appendix
“D”, p. 354). Appellant Abdel Nabi filed his Notice of Appeal on the
19th day of September, 2019. (Appendix “D”, p. 360).
The Permanent Parenting Plan Order was filed on the 10th day
of October, 2019.3 (Appendix “D”, p. 365). On November 10, 2019,
Appellant Nehad Abdel Nabi filed his Objection to the Proposed
Parenting Plan specifically challenging the Child Support Worksheet
attached to the Parenting Plan.4 (Appendix “D”, p. 389).

3 This was the first time Defendant Abdel Nabi had seen the Child Support Worksheet attached to the
Parenting Plan. As it turns out, this was served Robert Jolley five months after he had withdrawn as
counsel.
4 A timely Motion for Enlargment of Time was filed on October 28, 2019 asking for a thirty day extension
of time. (Appendix “D”, p. 382).

14

Moreover, Petitioner/Appellant Nehad Abdel Nabi is a pro se
prisoner litigant in a divorce action entailing large amounts of real
estate and capital as well as child support, custody and visitation
rights of two minor children. While Mr. Abdel Nabi is proceeding
pro-se, there are multiple attorneys involved in this action,5 none of
whom have Mr. Abdel Nabi’s best interest at heart, and all of whom
have requested oral argument.
On Appeal, the Tennessee Court of Appeals scheduled Oral
Arguments for the 21st day of June, 2020. Petitioner filed a Motion
in Opposition to Oral Arguments which was denied on the 16th day of
June, 2020. Petitioner filed a motion to rehear on the 29th day of
June, 2020, which was denied on the 29th day of June, 2020.

A

Petition to grant a review of the Appellate Court’s Interlocutory
Order was submitted to Supreme Court of Tennessee on the 5th day
of July, which was immediately denied. The Court of Appeals for the
Eastern District of Tennessee entered final judgment on the 18th day
of November of 2020.

No Petition for Rehearing was filed.

Application for permission to appeal to the Supreme Court of

5 Appellee Fatma Adel Sekik is represented by five (5) attorneys: Wanda Sobieski, Diane M. Messer,
Caitlin F. Elledge, Zachary T. Powers & Laura E Wyrick of Knoxville; Third Party Appellant/Appellee is

15

Tennessee was denied on May 12, 2021.
REASONS FOR GRANTING THE PETITION
A.
DID THE TENNESSEE COURT OF APPEALS DENY
THE PETITIONER’S DUE PROCESS RIGHTS WHEN IT
ALLOWED EX PARTE ORAL ARGUMENTS BY
OPPOSING COUNSELS OVER THE PETITIONER’S
OBJECTION?
The first issue before this Court is whether the Court’s Order
of June 16, 20206 erred in denying pro-se appellant Nehad Abdel
Nabi’s motion opposing oral argument on constitutional grounds as
unconstitutionally infringing upon the due process rights of the
appellant. Mr. Abdel Nabi argued that “[u]nder the facts of this case
Appellant is being denied the opportunity to participate in Oral
Arguments that have been requested by the Appellee thereby
denying him procedural due process under both State and Federal
Constitutions.” (Appellant Nehad Abdel Nabi’s Motion In Opposition
To Oral Argument On Constitutional Grounds, p. 2, para. # 5). The
Court’s

Order

denied

the

Appellant’s

motion

stating

that:

“[Appellant has no constitutional right to oral argument.” Order, p.
represented by Matthew D. Barocas of Knoxville; and the State of Tennessee by the Hon. Herbert H.
Slatery, III.

16

1; Citing Martinez v. Court of Appeal of California, Fourth Appellate
District, 528 U.S. 152, 163, 120 S.Ct. 684, 692, 145 L.Ed.2d 597
(2000) (“We already leave to the appellate courts’ discretion, keeping
the best interests of both the prisoner and the government in mind,
the decision whether to allow a pro se appellant to participate in, or
even be present at, oral argument.” (quoting Price v. Johnston, 334
U.S. 266, 284, 68 S.Ct. 1049, 92 L.Ed.2d 1356 (1948)). The Appellate
Court then incorrectly stated: “[w]e granted appellant’s motion to
waive oral argument on his own behalf by Order entered February
25, 2020. Id.
Art. 1, Sec. 12, of the Constitution of Tennessee provides, in
part, “that no conviction shall work corruption of blood or forfeiture
of estate”.
Art. 1, Sec. 17 provides, in part, “And every man, for an injury
done him in his lands, goods, person or reputation, shall have
remedy by due course of law”.
Just as in the federal constitution, these constitutional
provisions constitute clear and unequivocal declarations of the public
policy of the State of Tennessee to the effect that no forfeiture of
6 Hereinafter referred to as “Order”.

17

property rights shall follow conviction for a crime, and that every
man shall have a remedy by due course of law for an injury
sustained by him.
The Fifth Amendment of the Constitution of the United States
provides, in part, “that no person shall ... be deprived of life, liberty,
or property, without due process of law’.
The Fourteenth Amendment provides, in part, “No state shall
make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of
law; nor deny any person within its jurisdiction the equal protection
of the laws.”
The United States Supreme Court has consistently held that
the Fourteenth Amendment forbids the government to infringe on
fundamental liberty interests at all, no matter what process is
provided, unless the infringement is narrowly tailored to serve a
compelling state interest. Washington v. Glucksberg, 571 U.S. 702,
721, 117 S.Ct. 2258, 2268, 138 L.Ed.2d 772 (1997).

18

Due process under the state and federal constitutions
encompasses both procedural and substantive protections. The most
basic principle underpinning procedural due process is that
individuals be given the opportunity to have their legal claims heard
at a meaningful time and in a meaningful manner.

Logan v.

Zimmerman Brush Co., 455 U.S. 422, 429-30, 102 S.Ct. 1148, 71
L.Ed.2d 365 (1982).

In contrast, substantive due process limits

oppressive government action, such as deprivations of fundamental
rights like the right to marry, have children, make child rearing
decisions, determine child custody, and maintain bodily integrity.
Washington v. Glucksberg, 521 U.S. 702, 720, 117 S.Ct. 2258, 138
L.Ed.2d 772 (1997).
Substantive Due Process
Substantive due process, unlike procedural due process, ‘bars
oppressive government action regardless of the fairness of the
procedures used to implement the action. It protects unremunerated
rights that are fundamental to our system of ordered liberty. Rochin
v. California, 342 U.S. 165, 169, 72 S.Ct. 205, 96 L.Ed. 183 (1952)
(quoting Paiko v. Connecticut, 302 U.S. 319 U.S. 319, 325, 58 S.Ct.
149, 82 L.Ed. 288 (1937); see also Obergefell v. Hodges,
19

U.S.

135 S.Ct. 2584, 2618, 192 L.Ed.2d 609 (2015) (Roberts, C.J.,
dissenting) (quoting Washington v. Glucksburg, 521 U.S. 702, 72021, 117 S.Ct. 2258, 138 L.Ed.2d 772 (1997)).
Procedural Due Process
“Procedural due process imposes constraints on governmental
decisions which deprive individuals of liberty or property interests
within the meaning of the Due Process Clause of the Fifth or
Fourteenth Amendment.” Mathews v. Eldridge, 424 U.S. 319, 332
96 S.Ct. 893, 47 L.Ed.2d 18 (1976) (internal quotation marks
omitted). An individuals right of access to courts for the purpose of
dissolving a marital relationship is protected by the Due Process
Clause. See Boddie v. Connecticut, 401 U.S. 371, 91 S.Ct. 780, 28
L.Ed.2d 113 (1971). “The fundamental requirement of due process is
the opportunity to be heard ‘at a meaningful time and in a
meaningful manner.’

Mathews, 424 U.S. at 333, 96 S.Ct. 893

(quoting Armstrong v. Manzo, 380 U.S. 545, 552, 85 S.Ct. 1187, 14
L.Ed.2d 62 (1965)). The question of what form of hearing is
required—including the “question ... of timing,” Dixon v. Love, 431
U.S. 105, 112, 97 S.Ct. 1723, 52 L.Ed.2d 172 (1977) — is addressed
through consideration of the following three factors:
20

First, the private interest that will be affected by the official
-ft^tinn; jsernnrl thp risk pf an erroneous deprivation of such
interest through the procedures used, and the probable value,
if any, of additional or substitute procedural safeguards; and
finally, the Government’s interest, including the function
involved and the fiscal and administrative burdens that the
additional or substitute procedural requirement would entail.
Mathews, 424 U.S. at 335, 96 S.Ct. 893.
1. The private interest that will be affected by
the official action
The United States Supreme Court has established that a
prisoner has a constitutional right of access to the courts. Bounds v.
Smith, 430 U.S. 817, 821, 97 S.Ct. 1491, 1494, 52 L.Ed.2d 72 (1977).
This right is founded in the due process clause of the fourteenth
amendment. Wolf v. McDonnell, 418 U.S. 529, 579, 94 S.Ct. 2963,
2986, 41 L.Ed.2d 935 (1974). Of course, a prisoner’s right of access is
not absolute.

However, at a minimum, due process requires that

absent a countervailing state interest of overriding significance,
prisoners must be afforded meaningful access to the courts and an
opportunity to be heard. See Bounds, 430 U.S. at 822, 97 S.Ct. at
1495; Boddie, 401 U.S. at 377, 91 S.Ct. at 785. (Emphasis in
original).

21

“An elementary and fundamental requirement of due process
in any proceeding which is to be accorded finality is notice
reasonably calculated, under all the circumstances, to apprise
interested parties of the pendency of the action and afford them an
opportunity to present their objections ...”

Mullane v. Central

Hanover Bank & Trust, 339 U.S. 306, 314, 70 S.Ct. 652, 657 (1950)
(emphasis added). '
An appeal can always be submitted on written briefs and, in
this case, all of the parties submitted briefs.

But oral argument

while not indispensable, is frequently if not usually desired by the
parties. Price v. Johnson, 334 U.S. 266, 280, 68 S.Ct. 1049, 1058, 92
L.Ed. 1356 (1948) overturned on other grounds.

And there are

occasions when a court deems it essential that oral argument be had;
indeed, a court order or request to that effect may be necessary
where the parties have previously indicated a willingness to forego
the privilege. Id. In such situations where oral argument is slated
to take place, fairness and orderly appellate procedure demand that
both parties be accorded an equal opportunity to participate in the
argument either through counsel or in person. Id. The difficulty, of
course, arises when one of the parties is a prisoner who has no
22

lawyer ... . Id. Since ordinarily the court cannot designate counsel
for the prisoner [in a civil case], an arrangement that is made for his
presence and participation at the oral argument can be said to be
‘reasonably necessary in the interest of justice.’ Id. Otherwise the
court loses the benefits of listening to his contentions, hearing only
the arguments of [opposing] counsel. Id. Conceivably, the prisoner’s
case might be unduly prejudiced by such a one-sided debate. Id.
Appellant

posits

that

opposing

counsel

requested

oral

argument to gain a tactical advantage over the Appellant. Appellant
submits that he suffered prejudice as a result in that he was denied
the opportunities to impeach and contradict opposing counsel’s
arguments, to make legal arguments and to reasonably explain his
issues. The risk under the current procedure is that the appellant
was deprived of any meaningful opportunity to present his side to
the Court.
2. The risk of an erroneous deprivation of such
interest through the procedures used, and the
probable value, if any, of additional or substitute
procedural safeguards
This Court denied the Appellant’s motion, relying on Martinez
v. Court of Appeal of California, for the proposition that the

23

“Appellant has no constitutional right to oral argument.” Martinez
v. Court of Appeal of California, 528 U.S. 152, 163, 120 S.Ct. 684,
692, 145 L.Ed.2d 597 (2000). The Martinez Court found as follows:
“The requirement of representation by trained counsel
implies no disrespect for the individual inasmuch as it tends
to benefit the appellant as well as the court. Courts, of
course, may still exercise their discretion to allow a lay
person to proceed pro se. We already leave to the appellate .
courts’ discretion, keeping “the best interests of both the
prisoner and the government in mind,” the decision whether
to allow a pro se appellant to participate in, or even to be
present at, oral argument. Considering the change in
position from defendant to appellant, the autonomy interests
that survive a felony conviction are less compelling than
those motivating the decision in Faretta. Yet the overriding
state interest in the fair and efficient administration of
justice remains as strong as at the trial level. Thus, the
States are clearly within their discretion to conclude that the
government’s interests outweigh an invasion of the
appellant’s interest in self-representation.
For the foregoing reasons, we conclude that neither the
holding nor the reasoning in Faretta requires Cahfornia to
recognize a constitutional right to self-representation on
direct appeal from a criminal conviction. Our holding is, of
course, narrow. It does not preclude the States from
recognizing such a right under their own constitutions. Its
impact on the law will be minimal, because a lay appellant’s
rights to participate in appellate proceedings have long been
limited by the well-established conclusions that he has no
right to be present during appellate proceedings, or to
present oral argument. Meanwhile the rules governing
appeals in California, and presumably those in other States
as well, seem to protect the ability of indigent litigants to
make pro se filings. In requiring Martinez, under these
circumstances, to accept against his will a state-appointed

24

arguments, to make legal arguments and to reasonably explain his
issues.
The Tennessee Appeals Court Order misstated the facts when
it alleged that they “granted appellant’s motion to waive oral
argument on his own behalf’. (Order, p. 1). While the Appellant
filed a motion in opposition to oral argument in January of 2020, at
no time did the Appellant waive oral argument. Rather, Appellant
moved the Tennessee Appellate Court to suspend the application of
Rule 35 allowing oral argument on grounds that allowing oral
argument at a hearing that the Appellant was unable to attend is
tantamount to allowing an ex parte hearing by opposing counsel.
(Defendant/Appellant Nehad Abdel Nabi’s Motion in Opposition to
Oral Argument) Moreover, any inference that Appellant waived oral
argument because he did not request oral argument on his brief was
in direct contravention to Rule 35’s provision that “If any party to an
appeal requests oral argument it is unnecessary for any other party
to do so...” See, Tennessee Rules of Appellate Procedure, Rule 35(a),
which states:
(a) Request; Waiver. Any party to an appeal who desires oral
argument shall so request by stating at the bottom of the
cover page of the party’s brief that oral argument is
26

requested. If any party to an appeal requests oral argument
---- it-is unnecessary for any—other party to do so except asotherwise provided in this subdivision. No party may argue
unless the party has filed a brief as required by these rules.
A party who has requested oral argument and who
thereafter determines to waive oral argument shall notify
the clerk of the appellate court and all other parties. Any
other party who has not previously requested oral
argument may then request oral argument by notifying the
clerk of the appellate court and all other parties.
Ordinarily, it is improper for a judge to initiate or consider ex
parte

communications

concerning

a

pending

or

impending

proceeding. Rule 10, RJC 2.9 Rules of the Supreme Court of the
State of Tennessee (Code of Judicial Conduct). In the context of the
cited rule, ex parte means without adequate notice to all parties and
opportunity of all parties to respond. Moore v. Moore, No. 01-A-019210-CH00-389, 1993 WL 54593 *5 (Tenn.Ct.App. Mar. 3, 1993). In
the context of the present situation, ex parte means out of the
presence of the parties ..., without full disclosure and opportunity to
impeach, contradict or explain. Id.
In Tennessee, the State Supreme Court had the foresight and
wisdom to understand that sometimes circumstances arise that
requires a deviation from the rules. Toward that end the Tennessee

27

Supreme Court enacted Rule 2 of the Tennessee Rules of Appellate
Procedure which reads as follows:
For good cause, including the interest of expediting decision
upon any matter, the Supreme Court, Court of Appeals, or
Court of Criminal Appeals may suspend the requirements or
provisions of any of these rules in a particular case on motion
of a party or on its motion and may order proceedings in
accordance with its discretion, except that this rule shall not
permit the extension of time for filing a notice of appeal
prescribed in Rule 4, an application for permission to appeal
to the Supreme Court from the denial of an application for
interlocutory appeal by an intermediate appellate court
prescribed in Rule 9(c), an application for permission to
appeal to the Supreme Court from an intermediate appellate
court’s denial of an extraordinary appeal prescribed in Rule
10(b), an application for permission to appeal prescribed in
Rule 11, or a petition for review prescribed in Rule 12.
None of the exceptions in Rule 2 apply to Rule 35’s provisions
that would have prevented the Tennessee Court of Appeals from
suspending oral argument.
3. The Government’s interest, including the
function involved and the fiscal and
administrative burdens that the additional or
substitute procedural requirement would entail
The State has a compelling interest in the security and cost of
transporting inmates to participate in oral argument which would
preclude oral argument by an inmate; however, the State would be
without a compelling interest if oral argument is suspended when

28

one of the litigants is a prisoner pro se litigant, or, in the alternative,
the

inmate

were

allowed

to

participate

through

Video

Communications Technology.
This matter appears to be an issue of first impression as the
Petitioner has been unable to find any case law that addresses this
particular question. It is quite apparent that the Respondent gained
a significant tactical advantage when allowed to argue unopposed to
the detriment of the Petitioner. Therefore, for good cause shown,
Petitioner Nehad Abdel Nabi propounds that this Court should
declare that Tennessee Rules of Appellate Procedure, Rule 35, as
applied in the case sub judice in conjunction with Tennessee Code
Annotated § 41-21-304(a), unconstitutionally denied the Petitioner
due process and equal protection of the law.
II.
THE TRIAL COURT DENIED DUE PROCESS
WHEN IT REFUSED TO GRANT APPELLANT
SUFFICIENT TIME IN WHICH TO LOCATE AND
SECURE NEW COUNSEL AFTER HIS TRIAL
ATTORNEY WITHDREW DUE TO A CONFLICT.
The second issue, Appellant is asking the Supreme Court
whether the Tennessee trial court’s refusal to grant him sufficient

29

time in which to locate and secure new counsel after his trial
attorney withdrew due to a conflict deprived him of “life, liberty, or
property, without due process of law”.
On the 8th day of February, 2019, the trial court, “and for good
cause shown,” relieved Mr. Jolley as counsel for Appellant Nehad
Abdel Nabi. (Appendix “C”, p. 207).

However, the trial court then

ordered that:
This matter continues to be set for trial on February 25 —
27, 2019, and March 4, 2019. The relieving of Mr. Jolley as
counsel will not continue this trial date. Defendant Nehad
Abdelnabi shall obtain new counsel or represent himself.
(Appendix “C”, p. 207).
On the 19th day of February, 2019, the Trial Court held a
Hearing on the Defendant / Cross-Plaintiff Nahed Abdulnabi’s
motion for continuance, (Appendix “C”, p. 225-26). Appellant Nehad
Abdel Nabi was not present at the hearing. 7 In that hearing, the
trial court stated:
Mr. Abdelnabi - Mr. Nehad Abdelnabi's loss of counsel
struck this Court as fortuitous in that he had a year to file
his motion asserting ineffective assistance of counsel as part
of his criminal case, and yet he chose to do it a week - well,
within a month of the trial date, I believe in an effort to
7 The Court “had requested that Mr. Abdel Nabi be brought over” [from the jail]. Consequently, Mr. Abdel
Nabi’s failure to appear was through no fault of his own. (Appendix “B”I, p. 226).

30

delay the trial, and so that Mr. Jolley could not continue,
■who has-defended this ca^e..sincp its inppptirm______________
(Appendix “C”, p. 233)
The trial court’s Order, entered on the 22nd day of February
2019, on the Motion to Continue, in pertinent part, found as follows:
As this Court has previously noted, it is fortuitous that
Nehad Abdelnabi had nearly a year to file an effective
assistance of counsel claim and waited until very shortly
before trial to do so resulting in the withdrawal of his
counsel and his request for continuance.
(Appendix “C”, p. 239).
Appellant Nehad Abdel Nabi diligently attempted to hire
counsel up to and during the trial.
Upon Appellant Nehad Abdel Nabi’s Motion for New Trial, the
trial court entered an Order finding and ordering, in pertinent part,
as follows:
Defendant chose several years ago to utilize the same
attorney to represent him in his criminal case as well as the
divorce case. Mr. Abdelnabi (sic) was convicted and waited
nearly an entire year before asserting a claim of ineffective
counsel against his counsel. During the time that Defendant
was considering to assert a claim of ineffective counsel and
while that claim was being prepared, he had time to retain
new divorce counsel. The Defendant is an educated and
skilled businessman. The Court has absolutely no doubt that
he understood that asserting an ineffective assistance claim

31

against his original counsel would require that attorney to
JDpfpndant. dpIaypH this rasp

while the criminal matters were pending. During that delay
and subsequent periods once the case proceeded, Defendant
disposed of assets and conspired with his family to defeat
Plaintiffs claim to substantial marital property. Defendant
failed to obtain new divorce counsel at the time he retained
his new post-conviction counsel. He is not entitled to a new
trial due to not having counsel under these circumstances.
(Appendix “D”, p. 354).
It should be noted that while Nehad Abdel Nabi may be an
“educated and skilled businessman”, he is not a lawyer, or educated
and trained in the law; consequently, he asserts that he did not
contemplate that his post-conviction claims would conflict his
counsel thereby requiring his counsel to withdraw from his divorce
case.
The Divorce Court claimed that Mr. Abdel Nabi “was convicted
and waited nearly an entire year before asserting a claim of
ineffective counsel against his counsel.” However, Mr. Abdel Nabi
had only one year in which to file for post-conviction remedies. Both
federal and state post-conviction remedies have a one-year limitation
period. The Tennessee Post-Conviction Statute provides:

32

“[A] person in custody under a sentence of a court of this state
must petition for post-conviction relief within one (1) year of the date
of the final action of the highest state appellate court to which an
appeal is taken or, if no appeal is taken, within one (1) year of the
date on which the judgment became final
T.C.A. § 40-30-102(a) (2006). The statute explicitly states “The
statute of limitations shall not be tolled for any reason, including
any tolling or saving provision otherwise available at law or equity.”
Id. It further stresses that “[t]ime is of the essence of the right to file
a petition for post- conviction relief or motion to reopen established
by this chapter, and the one-year limitations period is an element of
the right to file the action and is a condition upon its exercise.” Id.
In the event that a petitioner files a petition for post-conviction relief
outside the one-year statute of limitations, the trial court is required
to summarily dismiss the petition. See id, T.C.A. § 40-30-106(b)
(2006).

Additionally, a federal 28 U.S.C.A. § 2254 petition for habeas
corpus relief requires that: “a person in custody pursuant to the
judgment of a state court must file his application for a writ of
habeas corpus within one year of the date on which the judgment

became final by either the conclusion of direct review or the
expiration of the time for seeking such review. 28 U.S.C. § 2244(d)( I
)(A).

The Antiterrorism and Effective Death Penalty Act of 1996

(“AEDPA”) as contained in 28 U.S.C. § 2244(d) provides in part that:
1. A one-year period of limitation shall apply to an application for
a writ of habeas corpus by a person in custody pursuant to the
judgment of a State court. ...
2. The time during which a properly filed application for State
post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection..
Contrary to the trial court’s assessment that Mr. Abdel Nabi
. masterminded a scheme to delay the trial in his divorce, Mr. Abdel
Nabi had no choice but to file his Petition for Post-Conviction Relief
within the applicable one-year time limit.8
Continuances are governed by T.C.A. § 20-7-101 et seq. T.C.A.
§ 20-7-101 provides: “Continuances ... may always be granted by the
court, upon good cause shown, in any stage of the action.” As stated

8 Mr. Nehad Abdel Nabi filed his Petition for Post-Conviction Relief in the Criminal Court on the 25th day
of January, 2019. (Appendix “C”, p. 200).

34

above, “Good cause shown” includes, for instance, the unexpected
withdrawal of counsel due to a conflict. See, Fidelity-Phenix Fire Ins.
Co. v. Oliver, 152 S.W.2d 254, 258 (Tenn.Ct.App. 1941). (“[w]here it
is shown that defendant’s attorney had withdrawn from the case, it
is the duty of the court to continue the case a sufficient length of
time to permit defendant to employ other counsel and to enable the
new counsel to investigate the case and make defense.”). Robert L.
Jolley, Jr., represented Mr. Abdel Nabi in both his Criminal Trial
and his divorce proceedings. Mr. Jolley appeared in the divorce case
on the 17th day of October, 2012, (Appendix “B”, p. 28), and
continued to represent Mr. Abdel Nabi until his withdrawal for
cause on the 8th day of February, 2019, (Appendix “C”, p. 207). Mr.
Abdel Nabi did not contemplate that the filing for Post Conviction
remedies in his Criminal trial would cause Mr. Jolley to become
conflicted and have to withdraw as counsel.

Mr. Abdel Nabi

diligently attempted to retain new counsel prior to his February 25th
trial date. The trial Court and opposing counsel would not agree to
the continuance.

All of this resulted in Mr. Nehad Abdel Nabi,

(whom is untrained and unlearned in the law), being forced to
proceed pro-se into complex civil litigation against a trained

35

professional lawyer, much like “a sacrifice of unarmed prisoners to
gladiators”. Cf., United States v. Cronic, 104 S.Ct. 2039, 2046 (1984)
(“While a ... trial is not a game in which the participants are
expected to enter the ring with a near match in skills, neither is it a
sacrifice of unarmed prisoners to gladiators.”) As a result, Mr. Abdel
Nabi’s was denied due process and equal protection of the law.
CONCLUSION
Wherefore, the petition for a writ of certiorari should be
granted.
Respectfully submitted,

N;
# 561320
T.C.I.X.
1499 R.W. Moore Memorial Hwy.
P. O. Box 4050
Only, Tennessee 37140-4050

36

Nehad Abdel Nabi
■#-§6432-q---------------------------------T.C.I.X.
1499 R.W. Moore Memorial Hwy.
Only, TN 37140-4050
July 23, 2021
Scott S. Harris
Court Clerk
U.S. Supreme Court Bldg.
1 First Street N.E.
Washington, D.C. 20543

RE: FATMA ADEL SEKIK v. NEHAD ABDEL NABI, ET AL.
PETITION FOR WRIT OF CERTIORARI
Dear Clerk Harris,
Enclosed herewith for filing in the above referenced case is my Petition
for Writ of Certiorari. Please file this with the Court.
Should you have any questions, or comments, regarding the above,
please feel free to present them to me at my address above.
Respectmlly^ours,

V
ad Ab

Nabi

NAN/jcw
Cc:

Wanda G. Sobieski, Esq.
Hon, Herbert H. Slatery, III
File

4n

s

